U.S. Department of Labor                                                 OFFICE OF THE
                                                                         CHIEF FINANCIAL OFFICER
                           Office of Inspector General—Office of Audit




                                                                         MANAGEMENT ADVISORY COMMENTS IDENTIFIED
                                                                         IN AN AUDIT OF THE CONSOLIDATED FINANCIAL
                                                                         STATEMENTS
                                                                         FOR THE YEAR ENDED SEPTEMBER 30, 2013




                                                                                               Date Issued: March 31, 2014
                                                                                            Report Number: 22-14-006-13-001
                                                                U.S. Department of Labor—Office of Inspector General


Table of Contents
Executive Summary ...................................................................................................... 1
Inspector General’s Report .......................................................................................... 3
Comments and Recommendations ............................................................................. 5
  New Comments and Recommendations Identified in FY 2013 ............................... 5
      1. Improvements Needed over the Preparation and Review of Journal Entries ..... 5
      2. Improper Design of the Funds Check Control .................................................... 7
      3. Deficiencies in Office of Job Corps (OJC) Reconciliation Controls between the
          U.S. Department of Health and Human Services - Payment Management
          System (HHS-PMS) and the Department’s NCFMS ........................................ 10
      4. Insufficient Review and Approval of Initial Grant Awards and Subsequent Grant
          Award Modifications ......................................................................................... 13
      5. Insufficient Supporting Documentation for Contracts ....................................... 15
      6. Review of the Reconciliation of Unemployment Trust Fund (UTF) Ending
          Balances to Bureau of Public Debt (BPD) Ending Balances ............................ 17
      7. Improvements Needed over the Calculation of Net Present Values Used in the
          Statement of Social Insurance (SOSI) ............................................................. 19
      8. Ineffective Controls over Single Audit Report and Desk Review Tracking ....... 20
  Prior-Year Comments and Recommendations Still Present in FY 2013............... 23
      9. Insufficient Supporting Documentation for Certain Undelivered Orders (UDO)
          and Non-Federal Accounts Payable ................................................................ 23
      10. Insufficient Controls over Certain Budgetary Transactions .............................. 26
      11. Recording of Budgetary and Proprietary Entries for Appropriations ................ 28
      12. Improvements Needed in the Reconciliation of Fund Balance with Treasury .. 31
      13. Improvements Needed in the Monthly Statement of Differences (FMS 6652)
          Process ............................................................................................................ 34
      14. Improvements Needed in Certain Financial Reporting Matters........................ 38
      15. Improvements Needed in Property, Plant, & Equipment (PP&E) Controls....... 42
      16. Improvements Needed over the Review and Reconciliation of Payroll-related
          Information Provided by the U.S. Department of Agriculture National Finance
          Center (NFC) ................................................................................................... 44
      17. Lack of Policies and Procedures and Untimely Initiation of Background
          Investigations ................................................................................................... 46
      18. Deficiencies Noted in the Preparation of the Federal Managers’ Financial
          Integrity Act of 1982 (FMFIA) Draft Assurance Statement ............................... 49
      19. Lack of Advisory Council on Unemployment Compensation............................ 51
      20. Unsupported and/or Incorrect Expenses.......................................................... 52
Prior-Year Comments and Related Recommendations Closed in FY 2013 ............ 55
Appendix A .................................................................................................................. 57
      Acronyms and Abbreviations ............................................................................ 57




                                                                                      Management Advisory Comments
                                                                               For the Year Ended September 30, 2013
                                                                                     Report Number: 22-14-006-13-001
                  U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK





                                    Management Advisory Comments
                             For the Year Ended September 30, 2013
                                   Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General



Executive Summary
KPMG LLP (KPMG), under contract to the United States Department of Labor (DOL or
the Department), Office of Inspector General (OIG), audited DOL’s consolidated
financial statements as of and for the year ended September 30, 2013, and has issued
its report thereon dated December 16, 2013. The audit was conducted in accordance
with auditing standards generally accepted in the United States of America;
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements. The objective of the audit was to
express an opinion on the fair presentation of DOL’s consolidated financial statements.

KPMG noted certain matters, as of December 16, 2013, involving internal control and
other operational matters not related to IT security, that are presented for
management’s consideration. These management advisory comments are in addition to
the significant deficiencies presented in KPMG’s Independent Auditors’ Report, included
in DOL’s FY 2013 Agency Financial Report. These management advisory comments, all
of which have been discussed with the appropriate members of management, are
intended to improve internal control or result in other operating efficiencies and are
summarized in Exhibit I. Included in the comments are 12 prior-year comments that still
existed in FY 2013. Exhibit I also includes 8 comments and related recommendations
that are new for this year. Finally, the 7 prior-year comments and related
recommendations the auditors determined had been satisfactorily addressed during
FY 2013 are listed in Exhibit II.

We prepared this report to provide information to management that could assist in the
development of corrective actions for the management advisory comments identified in
the audit. Satisfactorily addressing these comments by management will help to ensure
these issues do not rise to the level of a significant deficiency in the future. OIG will
issue separate reports to each applicable Agency Head with comments resulting from
the testing performed over the Department’s general and application controls related to
certain information technology (IT) systems that support the consolidated financial
statements.




                                                              Management Advisory Comments
                                                       For the Year Ended September 30, 2013
                                        1                    Report Number: 22-14-006-13-001
                   U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK





                                     Management Advisory Comments
                              For the Year Ended September 30, 2013
               2                    Report Number: 22-14-006-13-001
                                               U.S. Department of Labor—Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, DC. 20210




March 31, 2014

                              Inspector General’s Report



Ms. Karen Tekleberhan
Acting Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Frances Perkins Building
Washington, D.C. 20210

KPMG has audited the consolidated financial statements of the Department for the
fiscal year ended September 30, 2013, and has issued its report thereon dated
December 16, 2013. In planning and performing its audit of the consolidated financial
statements of DOL, in accordance with auditing standards generally accepted in the
United States of America, KPMG considered DOL’s internal control over financial
reporting (internal control) as a basis for designing its auditing procedures for the
purpose of expressing an opinion on the consolidated financial statements but not for
the purpose of expressing an opinion on the effectiveness of DOL’s internal control.
Accordingly, KPMG did not express an opinion on the effectiveness of DOL’s internal
control. KPMG has not considered internal control since the date of its report.

KPMG noted certain matters, as of December 16, 2013, involving internal control and
other operational matters that do not relate to IT security and are presented for your
consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve
internal control or result in other operating efficiencies and are summarized in Exhibit I.
These comments are in addition to the significant deficiencies presented in KPMG’s
Independent Auditors’ Report, dated December 16, 2013, included in DOL’s FY 2013
Agency Financial Report. Included in the comments are 12 prior-year comments that
still existed in FY 2013. Exhibit I also includes 8 new comments and related
recommendations. Finally, the 7 prior-year comments and related recommendations the
auditors determined had been satisfactorily addressed during FY 2013 are listed in
Exhibit II. Comments involving internal control and other operational matters noted that
relate to IT security will be presented in separate letters from us to the appropriate
agency heads.



                                                                     Management Advisory Comments
                                                              For the Year Ended September 30, 2013
                                         3                          Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General


KPMG’s audit procedures are designed primarily to enable it to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                              Management Advisory Comments
                                                       For the Year Ended September 30, 2013
                                        4                    Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I



Comments and Recommendations

New Comments and Recommendations Identified in FY 2013

1. Improvements Needed over the Preparation and Review of Journal Entries

Although improvements had been made over the review of journal entries compared to
prior years, we continued to note instances where further improvements are needed.
DOL records journal entries throughout the year to account for certain transactions and
to make corrections to general ledger account balances, as necessary. The financial
statement audit identified various errors in journal entries in the prior year. During FY
2013, the OCFO implemented a process to monitor journal entries on a quarterly basis,
and formalized policies and procedures for assigning preparer and approver rights to
individuals for posting journal entries in New Core Financial Management System
(NCFMS). Additionally, journal entry training was available on a monthly basis.

As a result of the actions above, improvements were noted in the preparation and
review of journal entries during FY 2013 audit testing. However, certain deficiencies
were identified during testing of a sample of 171 journal entries recorded in NCFMS for
the period October 1, 2012, through September 30, 2013. Twenty-seven of the 171
journal entries contained one or more deficiencies. Specifically, the following were
noted:

   •	 14 instances where the entry was not recorded in accordance with the United
      States Standard General Ledger (USSGL) and/or applicable federal accounting
      standards;
   •	 4 instances where the entry did not reflect the underlying events and

      transactions;

   •	 11 instances where the Journal Voucher (JV) was not properly and/or timely
      reviewed by the reviewer;
   •	 5 instances where the entry was not recorded in the correct accounting period
      and/or at the appropriate amount; and
   •	 2 instances where the preparer did not have JV preparer rights.

Furthermore, certain agencies within DOL did not assess the materiality of the
aggregated impact of all entries that were recorded to correct prior-year balances in the
current fiscal year. DOL had not assessed the impact of 3 of the 171 journal entries
tested.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2013
                                        5                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

These errors were caused by authorized DOL supervisors’ insufficient review of journal
entries and their lack of awareness of new USSGL guidance to ensure the journal
entries were properly prepared and supported before posting them to the general
ledger. Furthermore, DOL did not have in place a tracking mechanism to aggregate the
departmental-level impact on the current fiscal year’s financial statements of the journal
entries that were made to correct prior-year errors. Without proper review and approval
of transactions, the risk increases that a material error would not be prevented or
detected and corrected in a timely manner. DOL may also not be aware of the full
impact on the current year financial statements from prior-year correcting entries that
were recorded in the current year.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government (GAO Standards) state:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.

Recommendations

We recommend the Acting CFO:

    1. Monitor journal entries and provide training to applicable supervisors to ensure
       they are performing sufficient reviews of journal entries and related
       documentation before the entries are posted.
    2. Develop and implement procedures for all agencies to assess the aggregate
       impact of all entries that were made during the current fiscal year to correct
       prior-year balances.

Management’s Response

Management acknowledges there is room for improvement and will continue to
reinforce policies and procedures and provide additional training, as needed, to further
enhance performance in this area. Although we agree that improvement is needed, we
do not agree with all of the deficiencies identified. For example, not recording entries in
accordance with USSGL, some of these entries were recorded to correct entries
recorded in the prior year incorrectly therefore the correction will not be a typical entry
but it will be the necessary entry. This example relates to one of the other noted
deficiencies, “entry not recorded in the correct accounting period”. We do not agree that
an entry processed to correct a PY item is a deficiency, the JV is accurate, and it is just
a matter of when the error was discovered. Correcting a PY error via JV is not a JV
deficiency. Lastly, we believe that journal entries are timely reviewed by the supervisors.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                         6                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

With that being said, we will continue to monitor journal entries and provide training
where applicable to enhance the process.

Auditors’ Response

Although management did not concur with all the deficiencies, they indicated that
actions will be taken to address them. Follow-up procedures will be conducted in
FY 2014 to determine whether corrective actions have been developed and
implemented.

2. Improper Design of the Funds Check Control

The process of manual override of the NCFMS control to prevent obligations in excess
of amounts available in an appropriation or fund was not designed properly and
documented in policies and procedures for the majority of the fiscal year to mitigate the
risk of noncompliance with the Anti-Deficiency Act for FY 2013. Specifically, evidence
was not maintained to support the following:

   •	 Disabling of the funds check system configuration by an authorized individual.
   •	 Enabling of the system configuration after recording an approved transaction that
      required the initial disabling of the fund control system configuration.

OCFO’s procedures for the instances of manual override of the funds control for funds
prior to FY 2009 that were in place for the majority of the fiscal year did not require
maintenance of proper documentation. Additionally, OCFO did not have documented
maintenance procedures in place for processing the manual override of the funds
control subsequent to FY 2009. The OCFO revised its policies and procedures in
September 2013 to require OCFO to maintain proper documentation if any manual
override (disabling/enabling system configuration) occurred to funds control regardless
of fiscal year funds. However, proper evidence was not maintained for the majority of
the fiscal year. Furthermore, the completeness of the listing could not be verified
because the listing was manually created, and proper monitoring policies and
procedures to ensure its completeness were not implemented.

In the absence of formal policies and procedures for manual overriding, OCFO relied on
compensating controls designed to detect potential instances of noncompliance with the
Anti-Deficiency Act and believed the risk of noncompliance was low.

Without effective policies and procedures to maintain evidence of the manual override
to ensure a complete listing of all manual overrides, DOL management may be unaware
of the frequency of override usage and related rationale, leading to potential abuse of
this option. As a result, DOL may over-obligate funds and be noncompliant with the
Anti-Deficiency Act.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                         7                      Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

The Anti-Deficiency Act, Public Law 97–258, 96 Stat. 923, states:

31 U.S. Code (U.S.C.) § 1341 – Limitations on expending and obligating
amounts:

      (a)(1) An officer or employee of the United States Government or of the
      District of Columbia government may not —
          (A) make or authorize an expenditure or obligation exceeding an
          amount available in an appropriation or fund for the expenditure or
          obligation;
          (B) involve either government in a contract or obligation for the
          payment of money before an appropriation is made unless authorized
          by law;
          (C) make or authorize an expenditure or obligation of funds required to
          be sequestered under section 252 of the Balanced Budget and
          Emergency Deficit Control Act of 1985; or
          (D) involve either government in a contract or obligation for the
          payment of money required to be sequestered under section 252 of
          the Balanced Budget and Emergency Deficit Control Act of 1985.

31 U.S.C. § 1517 – Prohibited obligations and expenditures:

      (a) An officer or employee of the United States Government or of the
      District of Columbia government may not make or authorize an
      expenditure or obligation exceeding—
          (1) an apportionment; or
          (2) the amount permitted by regulations prescribed under section
          1514(a) of this title.

National Institute of Standards and Technology, Special Publication 800-53, Security
and Privacy Controls for Federal Information Systems and Organizations, Revision 4,
Section AU-3, Contents of Audit Records, states:

      Control: The information system generates audit records containing
      information that establishes what type of event occurred, when the event
      occurred, where the event occurred, the source of the event, the outcome
      of the event, and the identity of any individuals or subjects associated with
      the event.

      Supplemental Guidance: Audit record content that may be necessary to
      satisfy the requirement of this control, includes, for example, time stamps,
      source and destination addresses, user/process identifiers, event
      descriptions, success/fail indications, filenames involved, and access
      control or flow control rules invoked. Event outcomes can include
      indicators of event success or failure and event-specific results (e.g., the

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2013
                                        8                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

       security state of the information system after the event occurred). Related
       controls: AU-2, AU-8, AU-12, SI-11

The GAO Standards state:

       Control activities occur at all levels and functions of the entity. They
       include a wide range of diverse activities such as approvals,
       authorizations, verifications, reconciliations, performance reviews,
       maintenance of security, and the creation and maintenance of related
       records which provide evidence of execution of these activities as well as
       appropriate documentation. Control activities may be applied in a
       computerized information system environment or through manual
       processes.

In addition, the GAO Standards state:

       Internal control and all transactions and other significant events need to
       be clearly documented, and the documentation should be readily available
       for examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper of electronic form. All documentation and records should be
       properly managed and maintained.

Recommendation

    3. We recommend the Acting CFO develop and implement an automated log of
       instances of the manual override of the funds controls and related management
       review procedures. Until an automated solution can be achieved, enhance
       policies and procedures to include procedures addressing the completeness of
       the listing of instances of the manual override of the funds control.

Management’s Response

DOL disagrees that the effect of the manual override process may result in an over
obligation of funds creating an Anti-deficiency action violation due to the internal review
and documentation maintained by DOL on such requests. DOL had procedures in place
to address the need for the manual override process, which impacts funds subsequent
to FY 2009 due to NCFMS migration in FY 2010. DOL agrees that more detailed
procedures were updated during FY 2013. The following tasks are currently being
implemented by DOL to confirm evidence that subsequent controls are in place:
OCFO will publish updated policies and procedures on LaborNet as guidance for
Agencies to follow.
    •	 OCFO will maintain a log of all funds override control requests received by
       OCFO.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                         9                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

     •	 Certain OCFO and GCE personnel will be granted authorization to review and
        approve the fund control override request.
     •	 OCFO will review the requests and confirm the available balance against the trial
        balance as of the requested date.
     •	 OCFO will provide approval to GCE.
     •	 GCE will process the request by GCE authorized personnel.
     •	 OCFO will confirm that the action was completed by GCE by e-mail and a screen
        print (if necessary) will be provided for documentation and record keeping
        purposes.
     •	 GCE will provide a report of the funds control override requests and actions on a
        monthly basis and OCFO will reconcile against their list for completeness.
        This will be done until an automated funds control override report is completed.

Auditors’ Response

Although management did not agree with a portion of the effect, system controls need
to be strengthened to prevent over obligation even in place of manual compensating
controls. Management indicated that actions will be taken to address the matters
identified in this comment. Follow-up procedures will be conducted in FY 2014 to
determine whether corrective actions have been developed and implemented.

3.   Deficiencies in Office of Job Corps (OJC) Reconciliation Controls between the
     U.S. Department of Health and Human Services - Payment Management
     System (HHS-PMS) and the Department’s NCFMS

Employment and Training Administration (ETA) generates a quarterly HHS-PMS Synch
Report for OJC contracts which identifies differences between the authorized amount
(obligation amount) and the advance amount (disbursement amount) reported in HHS­
PMS and NCFMS. However, mapping issues between HHS-PMS and NCFMS, which
prevent the systems from communicating properly, continued to in FY 2013 as they did
in prior years. Additionally, ETA did not have policies and procedures regarding the
roles and responsibilities for reviewing the OJC HHS-PMS Synch Report.

The OJC HHS-PMS Synch Report for the quarter ended March 31, 2013, was
unreliable because of inaccuracies caused by significant mapping issues between HHS­
PMS and NCFMS. Per discussion with OJC management, an independent contractor’s
OJC HHS-PMS reconciliation was identified as the primary control over OJC contracts.
However, the OJC HHS-PMS reconciliation as of March 31, 2013, did not contain
evidence documenting the review of the reconciliation by someone other than the
preparer. Additionally, the completeness of the OJC HHS-PMS reconciliation as of
March 31, 2013, could not be verified.

ETA did not deem allocating resources to resolve the mapping issues between HHS­
PMS and NCFMS as necessary because it was phasing out the OJC Synch Report as
OJC contracts are transferred to the NCFMS Accounts Payable module. ETA

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         10                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

management stated that the majority of contracts will be transferred to this module
within the next fiscal year, leaving in HHS-PMS what management believes to be an
immaterial dollar value and number of contracts that will not be migrated. Additionally,
ETA did not consider the OJC HHS-PMS Synch Report to be its primary control over
OJC contracts and, therefore, did not deem it necessary to develop and implement
related policies and procedures for reviewing the report. Regardless, ETA has not fully
developed and implemented a process to ensure the completeness and accuracy of the
OJC HHS-PMS reconciliation, and has not established minimum review requirements.
Without adequate reconciliation controls, errors could occur and not be detected or
corrected, resulting in a misstatement of OJC contract-related expenses, advances,
payables, and undelivered orders.

The GAO Standards state:

       Control activities occur at all levels and functions of the entity. They
       include a wide range of diverse activities such as approva1s,
       authorizations, verifications, reconciliations, performance reviews,
       maintenance of security, and the creation and maintenance of related
       records which provide evidence of execution of these activities as well as
       appropriate documentation. Control activities may be applied in a
       computerized information system environment or through manual
       processes.

The GAO Standards also state:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency's operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.

Finally, the GAO Standards state:

       Key duties and responsibilities need to be divided or segregated among
       different people to reduce the risk of error or fraud. This should include
       separating the responsibilities for authorizing transactions, processing
       and recording them, reviewing the transactions, and handling any related
       assets. No one individual should control all key aspects of a transaction
       or event.

Recommendation

4.	   Until the transfer of OJC contracts to the NCFMS Accounts Payable module is
      complete, we recommend the Acting CFO coordinate with the Assistant Secretary
      for Employment and Training to ensure:

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        11                      Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I


       a. The completeness and accuracy of the OJC HHS-PMS reconciliation.
       b. The OJC HHS-PMS reconciliation is reviewed by an individual other than the
          preparer and that this review is documented.

Management’s Response

ETA recognizes the need for adequate reconciliation controls for OJC contactors paid
via the HHS-PMS. In FY 2012 ETA established a quarterly reconciliation procedure of
NCFMS and HHS-PMS balances for all OJC contractors that utilize the HHS-PMS
system. The reconciliations include contract obligations, payments and reported
expenses, and are complete and well-documented similar to the other reconciliation
procedures performed by ETA.

This OJC HHS-PMS reconciliation is now our primary reconciliation, and we do not
believe that there is a need or a requirement for a second reconciliation of the same
data using the system generated Synch file. In addition, OJC recently moved all
contractors (with the exception of the student payroll contract) off of the HHS-PMS
system, and the new contract modifications issued in FY 2013 are paid using the
regular NCFMS accounts payable processing. At this point ETA does not believe that it
is necessary to pursue mapping fixes for the relatively immaterial unpaid and/or
unexpended balances remaining on old OJC accounting lines. We will continue to
monitor theses balances using our manual HHS-PMS reconciliation procedure until all
amounts are fully paid and expended. We will ensure that HHS-PMS transactions are
completely and accurately reflected in NCFMS.

We do not agree to the auditor assertion that the March 31, 2013 reconciliation's
completeness could not be verified. The reconciliation is prepared by obtaining all
contracts and applicable mods from the Office of Contracts through the review date.
The contracts are manually searched for in NCFMS and HHS-PMS to determine the
cumulative balances of obligations, payments, and expenses. This review was sent to
the auditors electronically, as requested. The hard copy of the reconciliation is
submitted to management for review/approval. Management signs and dates the hard
copy when the review/approval is complete. We believe that our current OJC HHS-PMS
reconciliation procedure, while it may be manual, is appropriate and in accordance with
applicable standards for internal control.

Auditors’ Response

Although management stated they did not concur with the recommendations, sufficient
documentation was not provided to contradict the deficiencies identified. Management
indicated that actions will be taken to address the matters identified in this comment.
Follow-up procedures will be conducted in FY 2014 to determine whether corrective
actions have been developed and implemented.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2013
                                       12                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

4.	 Insufficient Review and Approval of Initial Grant Awards and Subsequent
    Grant Award Modifications

The authorization of 32 initial grant awards and 32 grant modifications were selected as
of March 31, 2013, to determine if they were appropriately reviewed, authorized, and
entered into E-Grants. Of these 64 grants, the following were noted:

   •	 18 grants for the Bureau of Labor Statistics (BLS) could not be tested to verify
      segregation of duties between individuals who entered grant awards/modification
      into E-Grants and those who approved obligations. BLS maintained a process
      that allowed grant officers to delegate administrative functions to staff; however,
      system-provided reports could not be identified with specific grant documents to
      demonstrate appropriate segregation of duties.
   •	 3 grants related to Veterans’ Employment and Training Service (VETS) and the
      Occupational Safety and Health Administration (OSHA) had not been reviewed
      by an authorized accountant in E-Grants prior to their approval. According to
      VETS and OSHA management, on certain occasions E-Grants does not prompt
      or require an accountant’s review prior to a modification’s approval.

Without appropriate segregation of duties, review, and approval of grants, subsequent
modifications, and funding, DOL could potentially enter into unauthorized grants or
modifications to existing grants and over-obligate existing funding.

The GAO Standards state:

      Transactions and other significant events should be authorized and
      executed only by persons acting within the scope of their authority. This is
      the principal means of assuring that only valid transactions to exchange,
      transfer, use, or commit resources and other events are initiated or
      entered into. Authorizations should be clearly communicated to managers
      and employees.

In addition, the GAO Standards state:

      Key duties and responsibilities need to be divided or segregated among
      different people to reduce the risk of error or fraud. This should include
      separating the responsibilities for authorizing transactions, processing
      and recording them, reviewing the transactions, and handling any related
      assets. No one individual should control all key aspects of a transaction
      or event.

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews,
      maintenance of security, and the creation and maintenance of related
                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        13                      Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      records which provide evidence of execution of these activities as well as
      appropriate documentation. Control activities may be applied in a
      computerized information system environment or through manual
      processes.

OMB Circular No. A-123, states:

      Control activities include policies, procedures and mechanisms in place to
      help ensure that agency objectives are met. Several examples include:
      proper segregation of duties (separate personnel with authority to
      authorize a transaction, process the transaction, and review the
      transaction); physical controls over assets (limited access to inventories
      or equipment); proper authorization; and appropriate documentation and
      access to that documentation.

Recommendations

We recommend that the Acting CFO coordinate with the respective agencies to ensure
that:

    5.	 Procedures for BLS grants are developed and implemented to clearly 

        demonstrate appropriate segregation of duties in the grant award and 

        modification process.

    6.	 The Assistant Secretary for Veterans’ Employment and Training and the
        Assistant Secretary of Occupational Safety and Health work with the Assistant
        Secretary for Employment and Training to research and identify why E-Grants
        does not consistently require an accountant’s review prior to a grant
        modification’s approval, and implement appropriate corrective action.

Management’s Response

BLS concurs with the finding and recommendation. The BLS will work with the E-Grants
staff to develop and implement procedures that demonstrate appropriate segregation of
duties in the grant award and modification process.

VETS does not concur that the authorized accountant did not review the grant
modifications.

Auditors’ Response

Although VETS does not concur, sufficient documentation was not provided to
demonstrate the authorized accountants review. BLS indicated that actions will be taken
to address the matters identified in this comment. Follow-up procedures will be
conducted in FY 2014 to determine whether corrective actions have been developed
and implemented.

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2013
                                       14                      Report Number: 22-14-006-13-001
                                                     U.S. Department of Labor—Office of Inspector General
                                                                                                  Exhibit I


5. Insufficient Supporting Documentation for Contracts

Based on testing a sample of 58 contracts1 from NCFMS for the Department’s
compliance with the Federal Acquisition Regulation (FAR), one contract
(2407DOLJ091A20855002) did not have proof that the contract was signed by a
contracting officer with a valid warrant, and one competitive contract
(2409DOLB099328948000) did not comply with the FAR requirement for a written
quote. Office of the Assistant Secretary for Administration and Management (OASAM)
personnel had not maintained adequate supporting documentation to substantiate that a
contracting officer with a valid warrant approved funds for obligation. For a second
contract, the OASAM contracting officer lacked sufficient oversight to ensure the
contract was supported by a written quote. DOL was not in full compliance with FAR,
Subpart 6.1, Full and Open Competition; and Subpart 13, Simplified Acquisition
Procedures. As a result, the Department could not assure that qualified personnel were
suitably trained to perform contracting tasks in the best interests of the government and
that it received the best value.

FAR, Subpart 6.1 – Full and Open Competition, states:

          FAR, 6.101 – Policy

          (a) 10 U.S.C. § 2304, and 41 U.S.C. § 253, require, with certain limited
          exceptions (see Subpart 6.2 and 6.3), that contracting officers shall
          promote and provide for full and open competition in soliciting offers and
          awarding Government contracts. (b) Contracting officers shall provide for
          full and open competition through use of the competitive procedure(s)
          contained in this subpart that are best suited to the circumstances of the
          contract action and consistent with the need to fulfill the Government’s
          requirements efficiently (10 U.S.C. § 2304, and 41 U.S.C. § 253).

          FAR, 1.602-1 Authority

          (a) Contracting officers have authority to enter into, administer, or
          terminate contracts and make related determinations and findings.
          Contracting officers may bind the Government only to the extent of the
          authority delegated to them. Contracting officers shall receive from the
          appointing authority (see 1.603-1) clear instructions in writing regarding
          the limits of their authority. Information on the limits of the contracting
          officers’ authority shall be readily available to the public and agency
          personnel. (b) No contract shall be entered into unless the contracting
          officer ensures that all requirements of law, executive orders, regulations,


1
    Contracts selected were obligated between October 1, 2012, through June 30, 2013.

                                                                         Management Advisory Comments
                                                                  For the Year Ended September 30, 2013
                                                15                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

      and all other applicable procedures, including clearances and approvals,
      have been met.

In addition, FAR, Subpart 13 – Simplified Acquisition Procedures, states:

      FAR, 13.106-3 – Award and documentation
      (b) File documentation and retention. Keep documentation to a minimum.
      Purchasing offices shall retain data supporting purchases (paper or
      electronic) to the minimum extent and duration necessary for management
      review purposes. The following illustrate the extent to which quotation or
      offer information should be recorded:
             (1) Oral solicitations. The contracting office should establish and
             maintain records of oral price quotations in order to reflect clearly
             the propriety of placing the order at the price paid with the supplier
             concerned. In most cases, this will consist merely of showing the
             names of the suppliers contacted and the prices and other terms
             and conditions quoted by each.
             (2) Written solicitations (see 2.101). For acquisitions not exceeding
             the simplified acquisition threshold, limit written records of
             solicitation or offers to notes or abstracts to show prices, delivery,
             references to printed price lists used, the supplier or suppliers
             contacted, and other pertinent data.
             (3) Special Situations. Include additional statements— (i)
             Explaining the absence of competition if only one source is solicited
             and the acquisition does not exceed the simplified acquisition
             threshold (does not apply to an acquisition of utility services
             available from only one source); or (ii) Supporting the award
             decision if other than price-related factors were considered in
             selecting the supplier.

The GAO Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        16                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Recommendation

We recommend the Acting CFO coordinate with OASAM to:

    7.	 Enforce minimum documentation requirements to support compliance with the
        FAR.
    8.	 Develop and implement monitoring procedures to ensure compliance with the
        FAR regarding competitive contracts.

Management’s Response

Management does not concur with the findings and recommendations. OASAM
currently has monitoring procedures in place to ensure minimum documentation and
competition requirements are met, and therefore OASAM is in full compliance with the
FAR.

Management does not agree with the finding that the Contracting Officer did not have a
valid warrant at the time DOLJ091A20855, Modification #002 was signed. The
Contracting Officer had a valid Contracting Officer’s warrant at the time he executed the
subject document.

Management does not agree with the finding that Task Order #DOLB099328948 did not
contain a written quote in the file. A written quote from the Single Award IDIQ contract
holder is included in the task order file.

Auditors’ Response

Although management does not concur, sufficient documentation was not provided to
contradict the deficiencies identified.

6. Review of the Reconciliation of Unemployment Trust Fund (UTF) Ending
   Balances to Bureau of Public Debt (BPD) Ending Balances

The calculation of the expected Fund Balance with Treasury (FBWT) balance reported
on the reconciliation of UTF ending FBWT to the BPD ending FBWT as of September
30, 2013, contained a mathematical error of approximately $190 million. Furthermore,
OCFO did not provide documentation to support that it had identified this error.

OCFO personnel indicated that the error was entirely related to a timing difference
between transactions recorded by the Department and by BPD. However, OCFO did
not sufficiently document its conclusions related to reconciling this item, and elected
instead to manually adjust the expected ending FBWT presented on the reconciliation
by $190 million. Insufficient documentation of differences identified when performing
reconciliation controls may result in undetected misstatements in the consolidated

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        17                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

financial statements and inefficiencies in future reconciliations if undocumented
differences persist and again require research.

The GAO Standards state:

      Internal control and all transactions and other significant events need to
      be clearly documented, and the documentation should be readily
      available for examination. The documentation should appear in
      management directives, administrative policies, or operating manuals
      and may be in paper or electronic form. All documentation and records
      should be properly managed and maintained.

The GAO Standards also state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operation. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

Recommendation

    9.	 We recommend the Acting CFO develop and implement policies and
        procedures related to the documentation requirements when differences are
        identified in performing the reconciliation of UTF to BPD ending FBWT.

Management’s Response

Management does not concur with this NFR on the basis that the ultimate purpose of
the monthly reconciliation is to ensure that the FBWT amounts from NCFMS agree with
amounts reported on the Treasury Government-wide Accounting (GWA) statement. A
component of this process is to reconcile activity posted in NCFMS to BPD's reported
activity and generate an expected balance. However, in this instance since BPD had
already submitted their monthly files and an error was noted and corrected afterward by
both BPD and DOL, we adjusted the calculated BPD ending balance to the new
reported uninvested ESAA balance after consultation with BPD. DOL agrees that the
documentation could be improved; however, there was no risk of financial statements
misstatement as there are several layers of control within the reconciliation process.

Auditors’ Response

Although management stated they did not concur, sufficient documentation was not
provided to contradict the deficiencies identified. Management indicated that actions will
be taken to address the matters identified in this comment. Follow-up procedures will be


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        18                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

conducted in FY 2014 to determine whether corrective actions have been developed
and implemented.

7.	 Improvements Needed over the Calculation of Net Present Values Used in the
    Statement of Social Insurance (SOSI)

OCFO did not properly design its net present value calculation of cash flows associated
with the Black Lung program. Specifically, OCFO calculated an average duration of
expected cash flows based on decreasing cash flows, but instead should have used an
average duration on the respective fiscal year cash flow projections.

OCFO utilized a calculation based on what it believed best represented the average
duration of cash flows for the Black Lung program as it provided a better weighted-
average representation of cash flows for beneficiaries who were in the Black Lung
program longer. Additionally, OCFO incorrectly used OMB economic assumptions for
Treasury bonds in order to use one source for discounting its benefit programs (FECA
and Energy). Incorrect discount rates may misrepresent the net present value of
projected cash flow benefit payments, administrative costs, and income on the SOSI;
and impact the change in assumptions as reflected on the Statement of Change in
Social Insurance.

Statement of Federal Financial Accounting Standards (SFFAS) 17, Accounting for
Social Insurance, Paragraph 27, establishes the requirement to discount projected cash
flows in preparing the SOSI:

      (3) Actuarial Present Values – For all programs except UI, a statement
      presenting the actuarial present value of each of the following: All future
      expenditures during the projection period related to benefit payments
      [and]…All future contributions and tax income (from taxation of benefits)
      during the projection period.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended,
Paragraph 66, though not specifically applicable to the Black Lung Program, provides
guidance on the selection of discount rates for liabilities:

      …the discount rate assumption for present value measurements pension
      liabilities should be the interest rate on marketable Treasury securities of
      similar maturities to the cash flows of the payments for which the estimate
      is being made. The discount rates should be matched with the expected
      timing of the associated expected cash outflow. Thus, each year for which
      cash flows are projected should have a separate discount rate associated
      with it. However, a single average discount rate may be used for all
      projected future payments if the resulting present value is not materially
      different than the resulting present value using multiple rates.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        19                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Statement of Federal Financial Accounting Concepts No.1, Objectives of Federal
Financial Reporting, Paragraph 163, states:

      Financial reports should be consistent over time; that is, once an
      accounting principle or reporting method is adopted, it should be used for
      all similar transactions and events unless there is good cause to change.
      The concept of consistency in financial reporting extends to many areas,
      such as valuation methods, basis of accounting, and determination of the
      financial reporting entity. If accounting principles have changed, or if the
      financial reporting entity has changed, the nature and reason for the
      change, as well as the effect of the change, should be disclosed.

Recommendation

    10. We recommend the Acting CFO design OCFO’s net present value calculation
        of projected cash flows for the Black Lung program to properly calculate
        average duration of cash flows, and utilize the interest rates published by
        Treasury as of the start of the projection period for Treasury loans to
        government agencies.

Management’s Response

OCFO agrees with the recommendation with regard to the calculation of average
duration. For FY 2014, OCFO will modify its calculation of average duration. With
regard to the source of the discount rates, OCFO will perform an analysis to ascertain
the effects of using the OMB mid-session review rates and the Treasury rates on the
average duration, Statement of Social Insurance, and Statement of Changes in Social
Insurance Amounts and make a determination on the appropriate source for the rates.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

8. Ineffective Controls over Single Audit Report and Desk Review Tracking

During testing of DOL’s compliance with the Single Audit Act Amendments of 1996, a
sample of 58 single audit reports was tested to determine if the OIG completed desk
reviews. For one report, the OIG did not complete a desk review and three reports were
erroneously excluded from OIG’s single audit tracking spreadsheet. Based on additional
review, each of the 4 aforementioned reports contained findings and recommendations
which were not provided to the applicable agencies for resolution. Furthermore, OIG’s
tracking spreadsheet contained an incorrect dollar value of the amounts audited for 20
reports, and the incorrect number of findings and/or recommendations for 13 reports.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        20                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


OIG did not have monitoring procedures in place to ensure it accurately recorded all
single audit reports from the Federal Audit Clearinghouse (FAC) into its single audit
tracking spreadsheet. As a result of not tracking these four single audit reports, the
OIG’s desk review process was hindered, which may result in audit findings and
questioned costs not being identified and resolved by the applicable agencies for
resolution. The lack of reliable single audit data could impact agency management’s
ability to generate accurate and timely information for decision-making purposes.

Per the Single Audit Act Amendments of 1996, Section 7502 (f)(1):

      Each Federal agency which provides Federal awards to a recipient shall
      … review the audit of a recipient as necessary to determine whether
      prompt and appropriate corrective action has been taken with respect to
      audit findings, as defined by the Director, pertaining to Federal awards
      provided to the recipient by the Federal agency.

In addition, OMB Circular No. A-133, Subpart D, Section 400(c), requires the federal
awarding agency to perform the following for the Federal awards it makes:

   •	 Ensure that audits are completed and reports are received in a timely manner
      and in accordance with the requirements of this OMB Circular No. A-133.
   •	 Issue a management decision on audit findings within six months after receipt of
      the audit report and ensure that the recipient takes appropriate and timely
      corrective action.”

The GAO Standards state:

      Control activities are the policies, procedures, techniques, and
      mechanisms that enforce management’s directives, such as the process
      of adhering to requirements for budget development and execution. They
      help ensure that actions are taken to address risks. Control activities are
      an integral part of an entity’s planning, implementing, reviewing, and
      accountability for stewardship of government resources and achieving
      effective results.

The GAO Standards also state:

      Internal control and all transactions and other significant events need to
      be clearly documented, and the documentation should be readily
      available for examination. The documentation should appear in
      management directives, administrative policies, or operating manuals and
      may be in paper of electronic form. All documentation and records should
      be properly managed and maintained.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        21                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Department of Labor Manual Series (DLMS) 8, Audit Resolution, Closure and Follow-
up, Chapter 513 (F), states in part, the Inspector General is responsible for:

      5. Maintaining the official DOL system for tracking OIG audits from issuance
          through resolution and implementation of corrective actions, including debt
          collection.
      15. In cooperation with the cognizant audit agency, conducting quality control
          reviews of single audits of DOL recipients to assess the extent and quality of
          audit coverage of DOL funds.

OIG desk procedures, Single Audit Requirements for Desk Review on Applying the
Risk-Based Approach, state that an auditor should:

      Conduct a desk review of every single audit report received from the
      Federal Audit Clearing house that includes a DOL direct or pass-through
      funding”. In addition, the Resolutions section of these procedures
      requires personnel to “check to make sure that all findings and
      recommendations match the report.

The Single Audit Requirements for Desk Review on Applying the Risk-Based Approach
also state:

      Office of Audit Quality Assurance will issue single audit letter reports to
      the applicable DOL agency official for those SARs (single audit reports)
      that include findings and/or questioned costs that require resolution by
      DOL agency grant officers.

Recommendation

     11.	 We recommend the Acting CFO coordinate with the OIG to ensure single
          audit desk review procedures are updated to include a supervisory review
          process that ensures all applicable reports from the FAC are identified,
          reviewed, accurately tracked, and resolved.

Management’s Response

Management concurs with the finding and recommendation. We have updated and
implemented additional single audit desk review procedures to strengthen the
monitoring of single audit reviews to include a consistent and periodic review that
ensures all applicable reports from the FAC are identified, reviewed, accurately tracked,
and resolved.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        22                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

Prior-Year Comments and Recommendations Still Present in FY 2013

9. Insufficient Supporting Documentation for Certain Undelivered Orders (UDO)
   and Non-Federal Accounts Payable

Certain UDO’s recorded in the NCFMS as of June 30, 2013 lacked sufficient supporting
documentation and had incorrect balances. Specifically, 6 of 149 errors that resulted in
a known net overstatement of UDOs in the amount of $45,925 contained the following
errors:

   •	 5 UDOs did not have sufficient supporting documentation; and
   •	 1 UDO had an incorrect balance as of June 30, 2013, based on continuing issues
      from the data migration that occurred during FY 2010.

In addition, 7 of 100 transactions selected for testing from UDO activity for the period
July 1 through September 30, 2013, had insufficient supporting documentation, which
resulted in a known net understatement in the amount of $1.4 million.

As of September 30, 2013, the errors resulted in a $1.3 million total known net
misstatement of UDO balances. Based on the sample results, the projected most likely
understatement was $160.3 million, with 86 percent confidence that the errors ranged
between an overstatement of $234.5 million and an understatement of $555.1 million.

Additionally, the OCFO identified transactions that lacked supporting documentation by
performing an analysis of abnormal balances in the non-federal accounts payable.
However, the OCFO did not correct these errors in the subsidiary ledger and NCFMS.
These uncorrected errors jeopardize the integrity of the NCFMS.

The existence of inadequately or unsupported UDO balances and activity was caused
by insufficient review of related documentation to ensure the amounts were correct and
the transactions were supported before posting the transactions to NCFMS; failure to
resolve all data migration issues from the FY 2010 system conversion; and the inability
to provide supporting documentation for certain UDO balances and activities.
Furthermore, the OCFO did not have formal documented policies and procedures for
management’s review of monthly UDOs and accounts payable.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        23                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

31 U.S.C. § 1501 – Documentary Evidence Requirement for Government Obligations,
states:

       An amount shall be recorded as an obligation of the United States
       Government only when supported by documentary evidence of a binding
       agreement between an agency and another person (including an agency)
       that is (a) in writing, in a way and form, and for a purpose authorized by
       law; and (b) executed before the end of the period of availability for
       obligation of the appropriation or fund.

In addition, 31 U.S.C. § 1554 – Audit, control, and reporting, states:

       The head of each agency shall establish internal controls to assure that an
       adequate review of obligated balances is performed to support the
       certification required by section 1108(c) of this title.

OMB Circular No. A-123 states:

       Reliability of financial reporting means that management can reasonably
       make the following assertions: All reported transactions actually occurred
       during the reporting period…and transactions should be promptly
       recorded, properly classified, and accounted for in order to prepare timely
       accounts and reliable financial and other reports.

The GAO Standards state:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.

The GAO Standards also state:

       Transactions should be promptly recorded to maintain their relevance and
       value to management in controlling operations and making decisions. This
       applies to the entire process or life cycle of a transaction of event from the
       initiation and authorization through its final classification in summary
       records. In addition, control activities help to ensure that all transactions
       are completely and accurately recorded.




                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         24                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Recommendations

The following prior-year recommendations are still open:

   •	 Work with the DOL agencies to provide training to address:
      o	 The minimum procedures that should be performed to complete an adequate
         supervisory review of transactions prior to entry in the general ledger.
      o	 The minimum procedures that should be performed to monitor obligation
         balances for validity.
      o	 The minimum documentation requirements needed to sufficiently support
         recorded transactions.
   •	 Perform an analysis of UDOs to identify remaining errors that resulted from the
      migration to NCFMS, and make corrections as necessary.
   •	 Develop and implement formal policies and procedures to:
      o	 Periodically obtain and review the results of the agencies’ review of their
         UDOs.
      o	 Confirm that agencies have deobligated expired and invalid UDOs timely in
         the general ledger.

In addition, we are making the following new recommendations that the Acting CFO:

    12. Develop and implement formal policies and procedures to describe the UDO
        review process, including the appropriate level of detail and minimum
        documentation requirements.
    13. Implement a plan of action to record correcting entries in both the subsidiary
        ledger and the general ledger, as appropriate, based on the results of its
        analysis over non-federal accounts payable.

Management’s Response

OCFO will continue to work with DOL agencies to ensure that: 1) supervisory reviews of
transactions are completed; 2) documentation needed to support recorded transactions
is maintained; and 3) procedures to monitor obligation balances are performed. OCFO
will continue to provide technical assistance and training to DOL agencies as needed.

In FY 2014, OCFO and DOL agencies will continue to research and resolve migrated
balances until the remaining balances are considered not to be significant to warrant
further work.

Management recognizes that there is an absence of formerly documented policies and
procedures. In 2014, we will implement a formal procedure to periodically review the
results of the agencies' review of their UDOs and confirm that agencies have
deobligated expired and invalid UDOs.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        25                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


In FY 2013, management continued to track and analyze abnormal balances throughout
the year and performed a comprehensive analysis of abnormal accounts payable
balances as of year-end. In 2014, management will make adjustments for significant
account balances as needed. These adjustments will be completed in August, 2014.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

10. Insufficient Controls over Certain Budgetary Transactions

During testing of a sample of budgetary transactions as of June 30, 2013, we found that
15 of 58 transactions were inappropriately prepared and approved by the same
individual through the NCFMS budget module. We also noted there was no
compensating control as the OASAM Departmental Budget Center (DBC) did not
subsequently verify the accuracy of the data that was recorded in NCFMS.

The DBC utilized DOL’s shared service provider to process these transactions as
batches through the NCFMS budget module because of the significant number of
underlying transactions. However, the DBC did not have policies and procedures in
place that required batch transactions processed by the shared service provider to be
approved in NCFMS by a separate individual to evidence that the transactions were
recorded appropriately.

In addition, DBC did not subsequently verify the accuracy of the data recorded, as it
believed that its existing process outside of NCFMS was adequate. The DBC did not
have policies and procedures that required a post-recording review be performed and
evidence of review be documented.

Without the proper segregation of duties and proper independent review of budget
transactions, the risk increases that a material error would not be prevented or detected
and corrected in a timely manner. Specifically, during FY 2013, a $7.146 billion
transaction in appropriations, apportionments, and allotments was erroneously recorded
because of the lack of adequate review. DOL subsequently detected and corrected this
erroneous entry 24 days later. However, should this error

The GAO Standards state:

      Key duties and responsibilities need to be divided or segregated among
      different people to reduce the risk of error or fraud. This should include
      separating the responsibilities for authorizing transactions, processing and
      recording them, reviewing the transactions, and handling any related

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        26                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

       assets. No one individual should control all key aspects of a transaction or
       event.

In addition, the GAO Standards state:

       Control activities occur at all levels and functions of the entity. They
       include a wide range of diverse activities such as approvals,
       authorizations, verifications, reconciliations, performance reviews,
       maintenance security, and the creation and maintenance of related
       records which provide evidence of execution of these activities as well as
       appropriate documentation. Control activities may be applied in a
       computerized information system environment or through manual
       processes.

Recommendations

The following prior-year recommendation is still open:

The Acting CFO should coordinate with OASAM to develop and implement procedures
to document the approval of transactions in NCFMS by DOL approvers when service
providers are used to prepare batch entries.

In addition, we are making the following new recommendation that the Acting CFO:

    14. We recommend the Acting CFO coordinate with OASAM to develop and
        implement policies and procedures that require a review of batch transactions
        subsequent to their posting to ensure accuracy.

Management’s Response

Management concurs with the recommendations set forth above. In response, DBC met
with representatives of OCFO on January 29, 2014 and discussed how to address this
NFR and other instances of batch processing by the shared service provider (SSP) that
recorded a single individual as both the preparer and approver. At that meeting, OCFO
agreed to develop procedures which can be implemented to document the approval of
transactions by DOL approvers when service providers are used to prepare batch
entries. OCFO is currently reviewing these draft procedures.

The DBC has always requested, and received a post entry report from the SSP and
verifies the SSP has accurately entered the data provided. In response to this finding,
DBC will now keep formal documentation of these reviews and approvals and make
them available upon request. In the instance cited, the information provided to the SSP
was input accurately and DBC verified that fact. Where the error occurred was in the
initial calculations provided to the SSP. A formula was missing from one cell of the initial
worksheet used to develop the entries and was not discovered until reviewed by the

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         27                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

agency budget office. Therefore, DBC feels it is inaccurate to say that this error was due
to the lack of a review of NCFMS entries. The SSP recorded the data correctly, and
DBC verified that fact.

However, there was not a formal requirement for an independent review of amounts
made available for obligation when using this ‘automated’ system. This review will be
conducted by budget analysts from the Office of Agency Budget Programs (OABP),
which is within DBC but separate from the Office of Budget Policy and Systems (OBPS)
that is responsible for calculating the amounts available for entry and verification in
NCFMS when batch processing is utilized. OABP analysts will conduct an independent
review of the amounts to be made available for obligation for their assigned accounts,
each time batch, automatic funding is entered in NCFMS. OABP analysts have already
received training on the principles of federal appropriations law, and are familiar with the
common stipulations included in most CR legislation which is when batch processing is
used. This familiarity with both appropriations law and their assigned agencies results in
an accurate overall review of the amounts proposed to be made available for obligation
by OBPS. In addition, making these amounts available in the financial system in the
timeliest fashion possible is the major benefit for using this process, and using two
independent offices in DBC in this process will preclude measurable delays in providing
amounts available for obligation. Having this added scrutiny in this process will support
the inherent reason for developing and continuing to use the ‘automatic’ process while
enhancing accuracy, preserving timeliness, and mitigating the chance that one or more
DOL agencies would be negatively impacted in carrying out its mission as a result of
this independent review.

DBC took initial steps to implement this revised procedure in mid-February by holding
an internal training session on amounts planned for distribution for the second 30-day
extension of the automatic apportionment of funds, based on the authority contained in
section 129.41 of OMB Circular A-11. OABP analysts completed an independent review
of the calculations and reported back on any issues they encountered. This procedure
worked well during this initial test, and will be incorporated into DBC’s standard
operating procedures for the ‘automatic’ appropriation, apportionment, and allotment of
funds’ process in the future. DBC believes that this change will work as a permanent
procedure to mitigate the chance of a similar error occurring in the future.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

11. Recording of Budgetary and Proprietary Entries for Appropriations

During testing of the Department’s appropriations received, 11 appropriation
transactions were statistically selected between October 1, 2012 and June 30, 2013, to

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         28                      Report Number: 22-14-006-13-001
                                            U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

test for compliance with SFFAS No. 7 and the USSGL. For 3 of the 11 transactions, the
proprietary entry to record the unexpended appropriation when the appropriation was
made available for apportionment was not posted simultaneously with the
corresponding budgetary entry. The proprietary and budgetary entries for these 3
transactions were recorded from 8 to 41 days apart, but were recorded within the same
quarter. Not recording the proprietary and budgetary entries simultaneously to
recognize appropriations received could result in potential abnormal balances in Fund
Balance with Treasury upon disbursements for current year annual and multi-year
funds, and imbalances in budgetary/proprietary relationships. In addition, DOL was not
fully compliant with the USSGL at the transaction level as required by the Federal
Financial Management Improvement Act of 1996.

DOL’s established procedures were not designed in accordance with SFFAS No. 7 to
recognize appropriations in capital as unexpended appropriations when made available
for apportionment, even when a Treasury Warrant had not yet been received; and the
USSGL in recording the enactment of appropriations. According to DOL’s procedures,
the OASAM DBC records the budgetary entry when the approved Apportionment
Schedule is received, and the OCFO records the proprietary entry when the
Appropriation Warrant has been processed by the U.S. Department of the Treasury
(Treasury). DOL’s procedures were designed based on the premise that the receipt of
the Apportionment Schedule and the Appropriation Warrant are two separate events
which trigger the budgetary and proprietary entries, respectively. As such, DOL
determined that it was not necessary to update its procedures so that OASAM DBC and
OCFO coordinate to ensure almost simultaneous recording of appropriation entries.

SFFAS No. 7, Accounting for Revenue and Other Financing Sources, and Concepts for
Reconciling Budgetary and Financial Accounting, paragraph 71, states:

      Appropriations, until used, are not a financing source. They should be
      recognized in capital as "unexpended appropriations" (and among assets
      as "funds with Treasury") when made available for apportionment, even if
      a Treasury Warrant has not yet been received, or the amount has not
      been fully apportioned. Unexpended appropriations should be reduced for
      appropriations used and adjusted for other changes in budgetary
      resources, such as rescissions and transfers. The net increase or
      decrease in unexpended appropriations for the period should be
      recognized as a change in net position of the entity.

Public Law 104-208, Section 803(a), Implementation of Federal Financial Management
Improvements, states:

      Each agency shall implement and maintain financial management
      systems that comply substantially with Federal financial management
      systems requirements, applicable Federal accounting standards, and the


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2013
                                       29                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

      United States Government Standard General Ledger at the transaction
      level.

Furthermore, OMB Circular No. A-127, Financial Management Systems, Section 8C(3),
states:

      Financial events shall be recorded applying the requirements of the
      USSGL. Application of the USSGL at the transaction level means that
      each time an approved transaction is recorded in the system, it will
      generate appropriate general ledger accounts for posting the transaction
      according to the rules defined in the USSGL guidance.

USSGL, Section III, Account Transactions, Transaction Code A104, states,

      To record the enactment of appropriations.

      Budgetary Entry
      Debit 4119 Other Appropriation Realized 

             Credit 4450 Unapportioned Authority


      Proprietary Entry
      Debit 1010 Fund Balance with Treasury
             Credit 3101 Unexpended Appropriation – Appropriations Received

The GAO Standards state:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions. This
      applies to the entire process or life cycle of a transaction or event from the
      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.

Recommendation

The following prior-year recommendation is still open:

The Acting CFO should assign one agency to be responsible for recording both the
budgetary and proprietary journal entries. Or if separate agencies continue to record the
entries, develop and implement procedures that require those agencies to coordinate
appropriately to ensure simultaneous recording.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        30                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Management’s Response

We do not agree that the cause of the FY 2013 timing difference between the recording
of the enactment of the appropriation and the receipt of the warrant was due to the fact
that it is recorded by two different offices. In accordance with the Treasury's guidance
then available, the enactment of the appropriation was recorded when the
Apportionment Schedule was received. The recording of the warrant was delayed until
the actual warrant was processed by Treasury.

Additionally, "potential abnormal balances in Fund Balance with Treasury upon
disbursements for current year annual and multi-year finds" is inevitable. At month-end,
DOL's FBWT total MUST agree to Treasury's FBWT total and as a result of Treasury
not recording the warrant, Treasury's FBWT total is abnormal.

OASAM DBC will continue to record the budgetary entry when the approved
Apportionment Schedule is received, and the OCFO records the proprietary entry when
the Appropriation Warrant has been processed by the U.S. Department of the Treasury.
If the warrant is delayed OCFO will record the proprietary entries using the posting logic
guidance from OMB/Treasury until the actual warrant is received.

Auditors’ Response

Although management did not concur with the cause, they did not disagree with the
remainder of the finding and indicated that actions will be taken to address them.
Follow-up procedures will be conducted in FY 2014 to determine whether corrective
actions have been developed and implemented.

12. Improvements Needed in the Reconciliation of Fund Balance with Treasury

The OCFO made progress in addressing prior year recommendations related to the
reconciliation of FBWT. Specifically, the OCFO now requires the reconciliation of
differences at the document level, and maintains lead sheets to identify all unresolved
differences and the responsible point of contact for the unresolved item. The
Department also made improvement with respect to resolving the number of Treasury
Account Fund Symbols (TAFS) with outstanding prior period differences.

However, based on examination of 45 GWA Account Statement reconciliations and the
related supervisory reviews for February 2013, improvement was still needed in the
FBWT reconciliation process. Specifically, the following errors were identified:

   •	 16 TAFS contained unresolved prior month differences ranging from

      ($31,699,841) to $40,566,782 which were outstanding for more than three

      months: 



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        31                      Report Number: 22-14-006-13-001
                                                   U.S. Department of Labor—Office of Inspector General
                                                                                                Exhibit I

               TAFS             Agencies
          o	   16100181         Office of Job Corps
          o	   1611/120181      Office of Job Corps
          o	   16120181         Office of Job Corps
          o	   1610/110181      Office of Job Corps
          o	   1609/100184      Office of Job Corps
          o	   1609/110181      Office of Job Corps
          o	   16100165         Departmental Management
          o	   1609/100167      Departmental Management
          o	   16X4601          Working Capital Fund
          o	   16X5393          Wage and Hour Division
          o	   16110179         Employment and Training Administration
          o	   16100200         Bureau of Labor Statistics
          o	   16X1521          Office of Workers' Compensation Programs
          o	   16101200         Mine Safety and Health Administration
          o	   16090400         Occupational Safety and Health Administration
          o	   16100400 2       Occupational Safety and Health Administration

      •	 2 TAFS — 16100165 and 16100181 — did not contain evidence that
          management review was performed at a sufficient level of detail to ensure
          significant differences, defined by OCFO managers as being greater than $2.5
          million (i.e., the threshold OCFO management identified during the process
          walkthrough) were researched, reconciled, and resolved.

These issues occurred because OCFO had not revised its policies and procedures to
include a requirement that all differences be resolved within three months. In addition,
the OCFO has not formalized and communicated across DOL the dollar amount that
constitutes a “significant” difference so that the differences could be prioritized for
resolution.

Differences that are not properly researched and resolved timely compromise the
reliability of FBWT balances, other USSGL account balances contra to the USSGL 1010
account, and Treasury’s published financial reports.

Treasury Financial Manual, March 2012, (TFM) Volume 1, Part 2, Chapter 5100, states:

          Monthly, they (agencies) must reconcile the USSGL account 1010
          balances for each fund symbol with FMS’s records … Agencies should
          document their reconciliations and make them available to auditors and
          Treasury if requested. Agencies also should ensure that all adjustments
          are researched and traceable to supporting documents.




2
    The OCFO resolved these differences by August 2013.

                                                                       Management Advisory Comments
                                                                For the Year Ended September 30, 2013
                                              32                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Treasury’s FBWT Reconciliation Procedures, A Supplement to the Treasury Financial
Manual, 1 TFM 2-5100 March 2012 (Reconciliation Procedures), state:

      Federal agencies must research and resolve all differences between the
      balances reported on their G/L FBWT accounts and balances reported on
      the GWA Account Statement.

The Reconciliation Procedures also states that Federal agencies should not “…permit
prior month differences to remain outstanding for more than 3 months…”

Furthermore, the Reconciliation Procedures state:

      …each financial system’s policies and procedures should provide for
      regular and routine reconciliation of G/L accounts, thorough investigation
      of differences, determination of specific causes of differences, and
      initiation of corrective action.

The GAO Standards state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

In addition, the GAO Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendation

The following prior-year recommendation is still open:

The Acting CFO should enhance DOL’s GWA Account Statement reconciliation policies
and procedures to specify that all differences identified in the reconciliation process be
resolved within three months.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        33                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I


In addition, we are making the following new recommendation that the Acting CFO:

    15. Specify a threshold for identifying significant differences in the monthly GWA
        reconciliation that will be prioritized for resolution and periodically review the
        threshold for reasonableness.

Management’s Response

In FY 14, OCFO Division of Central Accounting Office (DCAO) plans to eliminate all
FY10-13 differences for complete compliance to have outstanding differences greater
than 90 days cleared by September 30, 2014. DCAO will not establish a threshold, as
the differences over 90 days are being worked on as a priority effort in FY14

In addition, FBWT Procedures have been developed and published on Labornet for all
reconciliation preparers to access. The procedures now outline the responsibility of
each agency to clear differences within 3 months. The procedures also addressed the
method in which a "significant difference" will be determined and communicated.

Beginning in FY'14, DOL will begin tracking performance metrics for:
1. Percentage of differences listed at the document level.
2. Percentage of differences cleared within 90 days.
3. Percentage of reconciliations received on time.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

13. Improvements Needed in the Monthly Statement of Differences (FMS 6652)
    Process

Based on testing of a sample of 6 FMS 6652 reconciliations and related supervisory
reviews for the month of February 2013, KPMG identified the following deficiencies:

   •	 Four agency location codes (ALC) within ETA, OASAM, and OCFO reported
      differences for the month of February 2013 that were not resolved timely (i.e.,
      within three months). These differences totaled an absolute dollar amount of $1.2
      million and related to prior months ranging from April 2011, to September 2012.

   •	 The FMS 6652 reconciliation for ALC 16012004 was prepared 46 days after
      month end, which is not considered timely (i.e., within 30 days).



                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         34                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

   •	 The reconciliations for ALCs 16012004, 16010003, and 16012016 did not include
      sufficient evidence to support that the entire difference was reconciled/resolved
      and posted. Although the majority of the differences — ranging from $6,000 to
      $180,000 — were resolved before June 4, 2013, the remaining differences were
      not resolved until August 7, 2013.

   •	 Management review of the FMS 6652 reconciliation for ALC 16010003 was not
      performed at a sufficient level of detail. Specifically, unresolved differences
      reported on the FMS 6652 represented approximately 13 percent of the
      transactions reported for the ALC on the SF-224, Statement of Transactions,
      within the reporting period.

Additionally, four instances were identified in which OCFO did not timely send reminder
emails or perform alternate follow up with reconciliation preparers and reviewers that
failed to submit FMS 6652 reconciliations to OCFO by the established deadline.
Specifically, during testing of the May and July 2013 OCFO reconciliation tracking
sheets, the OCFO did not perform timely follow-up for the following FMS 6652
reconciliation submissions:

   •	 The May 2013 reconciliation for ALC 16012011 (disbursements and deposits)
      was submitted 1 business day late.

   •	 The July 2013 reconciliations for ALCs 16010015 (deposits) and 16012018
      (disbursements and deposits) were submitted 4 business days late.

   •	 The July 2013 reconciliation for ALC 16012014 (deposits) was submitted 5 

      business days late.


DOL made progress in implementing prior-year recommendations. For example,
between September 30, 2012, and February 28, 2013, DOL reduced from 13 to 3 the
number of FMS 6652 reports with differences dating back to FYs 2011 and 2010. OCFO
incorporated Treasury’s FBWT Reconciliation Procedures into its revised fund balance
with Treasury reconciliation procedures. OCFO also developed additional procedures
that provided detailed instructions for the preparation and review of FMS 6652
reconciliations and implemented a new monitoring control to promote the timely
submission of FMS 6652 reconciliations by agency. Furthermore, procedures were
implemented to share a scorecard provided to DOL by Treasury with agency heads on
a quarterly basis to raise awareness among key executives of DOL’s metrics related to
the accuracy and timeliness of reporting and reconciling fund balance with Treasury.

However, we noted several areas where further improvement could be made which
could prevent the type of deficiencies not in this year’s audit. Competing priorities within
OASAM caused untimely preparation and submission of the February 2013 FMS 6652.
In addition, the unresolved differences identified on the reconciliations for OASAM and
ETA occurred because these agencies had not implemented an effective process for

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         35                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

documenting the reconciliation and supervisory review of individual differences on the
FMS 6652 for the current and prior months, the related causes, and the related
corrective actions for each difference. Furthermore, department-wide policies and
procedures did not specifically require all differences to be resolved within three
months.

OCFO stated that it did not follow up with agencies that did not submit timely FMS 6652
reconciliations primarily because the SF-224 Reporting Procedures Manual did not
include a requirement to do so.

Differences that are not properly researched and resolved timely could compromise the
reliability of FBWT balances, other USSGL account balances contra to the USSGL 1010
account, and Treasury’s published financial reports.

Reconciliation Procedures state, “…agencies must research and resolve all
differences...”

Reconciliation Procedures also state:

      Federal agencies must research and resolve differences reported on the
      monthly FMS 6652…Cash Analysis Branch sends agencies’ CFOs a
      scorecard letter that provides a certain rating (scoring) on the accuracy
      and timeliness of an agency’s reconciling efforts should an agency have
      differences older than 3 months.

Furthermore, Reconciliation Procedures state:

      …each financial system’s policies and procedures should provide for
      regular and routine reconciliation of G/L accounts, thorough investigation
      of differences, determination of specific causes of differences, and
      initiation of corrective action.

TFM, Volume 1, Part 2, Chapter 5100, states:

      …agencies should reconcile FBWT accounts at least monthly. They
      should have written standard operating procedures to direct and document
      the correct reconciliation process … Agencies should document their
      reconciliations and make them available to auditors and Treasury if
      requested. Agencies also should ensure that all adjustments are
      researched and traceable to supporting documents.

TFM, Chapter 5100, further states “…an authorized agency official should review and
sign the monthly agency reconciliation documents.”



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        36                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

The GAO Standards state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

The GAO Standards also state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

DOL procedural document, SF-224 Reporting Procedures Manual, Version 2013.4,
states:

      Agencies are expected to submit their signed and dated reconciliations to
      the SF-224 mailbox no later than the thirteenth business day of the month.
      The SF-224 team will respond to the agency within two business days
      regarding action items.

Recommendations

The following prior-year recommendations are still open:

   •	 The Assistant Secretary for Employment and Training and the Assistant
      Secretary for Administration and Management dedicate appropriate resources to
      resolve all prior period differences, consulting with Treasury personnel as
      needed.

   •	 The Assistant Secretary for Administration and Management and the Assistant
      Secretary for Employment and Training follow department-wide policies and
      procedures over the FMS 6652 reconciliation process to perform, document, and
      review timely monthly FMS 6652 reconciliations to demonstrate that differences
      identified on the Statement of Differences reports have been sufficiently
      investigated and timely resolved.

   •	 Enhancements are made to department-wide policies and procedures over the
      FMS 6652 reconciliation process to specifically require the resolution of all FMS
      6652 differences within three months, in accordance with Treasury’s
      Reconciliation Procedures.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        37                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I


In addition, we are making the following new recommendation that the Acting CFO:

    16. Update the SF-224 Reporting Procedures Manual to include a requirement that
        follow-up with agencies that do not submit the FMS 6652 reconciliations by the
        established due date occur the day after the reconciliation is due.

Management’s Response

Management disagrees with the statements that the overall integrity and status of DOL
financial reports are compromised, as the SOD difference amounts as of September 30,
2013, are immaterial and within the 3 month threshold in compliance with Treasury
guidance. Additionally, DOL is working with Treasury to implement the process that will
capture Treasury Account Symbol information for payments, deposits and intra­
governmental transactions at the earliest possible time and record the transactions
directly to the FMS record of the Agency's Fund Balance with Treasury. DOL and
Treasury will complete the work on this major initiative, eliminating FMS-224 reporting
and the multiple levels of reconciliation currently required to validate central accounting
system fund balance with program information maintained at federal agencies.

Auditors’ Response

The SOD difference amounts during fieldwork were not within the three month threshold
and therefore could jeopardize the overall integrity and status of DOL financial reports.
Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

14. Improvements Needed in Certain Financial Reporting Matters

During testing over the financial reporting process for both the financial statement audit
and the subsequent closing package submission to Treasury, the following deficiencies
were noted in certain financial reporting matters:

Financial Statement Audit
DOL identified $893.4 million of expended appropriations and unexpended
appropriations used that were improperly recorded in the general ledger in prior years
and were corrected in the general ledger by DOL in the current year. However,
management did not properly document its assessment of the quantitative and
qualitative impact of these corrections on the current year’s financial statements prior to
recording them. OCFO lacked policies and procedures to identify, analyze, and
document the quantitative and qualitative effect of recording entries in the current year
to correct prior-year errors. Recording entries in the current year to correct prior-year
errors may materially misstate the current year financial statements. If these errors are
not properly researched and analyzed to assess the qualitative and quantitative effect

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         38                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

on the overall financial statements, their inclusion in the current year data may be
misleading for users of the financial statements.

DOL did not fully address certain requirements of Management’s Discussion and
Analysis (MD&A). Specifically, forward looking information within the MD&A focused
solely on certain plans by various agencies without providing sufficient discussion of the
expected impact of the FY 2013 sequester and other then-known risks and uncertainties
on future years. Additionally, the rationale for trends in certain performance measures,
including insight as to why performance targets were/were not achieved in FY 2013,
was not consistently reported. OCFO indicated that information within the performance
section of the MD&A, which discussed FY 2014 and/or FY 2015 planned activities,
sufficiently addressed forward-looking information. OCFO also indicated that it did not
receive the results of performance measures and related analysis of results as
compared to goals by other offices in sufficient time to provide comments and
corrections over such information and meet the financial reporting deadline. An
incomplete MD&A may not properly communicate management’s’ insights about the
reporting entity, or sufficiently provide understandable and accessible information about
the entity and its operations, service levels, successes, challenges, and future.

Closing Package
During KPMG’s testing of the closing package, a misclassification between trading
partners was identified whereby an OCFO Accountant classified Department of Army as
an Independent and Other Trading Partner (Code 9500) instead of as a Department of
Defense Trading Partner (DE00) for both Benefit Program Contributions Receivable and
Benefit Program Revenue. This occurred because OCFO did not analyze closing
package data for significant changes from year to year as part of its internal review
process in preparing the closing package Module 4 submission. Management recorded
entries to correct the trading partner misclassification for $537 million of Benefit
Program Contributions Receivable and $583 million of Benefit Program Revenue within
Module 4 of the closing package. Incorrect trading partner information may cause
intragovernmental activity elimination errors for the government-wide financial
statements.

While the OCFO formally documented procedures for generating detailed general
ledger transactions from NCFMS based on an OIG FY 2012 recommendation, OCFO
did not formally document the process for promptly researching and resolving significant
financial reporting issues. OCFO management believed the informal process they
established during FY 2012 was sufficient and documenting the process was not
necessary. However, the lack of formally documented policies and procedures
increases the risk that controls necessary to ensure the consolidated financial
statements are properly stated and presented in conformity with generally accepted
accounting principles may not be performed or may be performed improperly. This
could ultimately lead to errors in the consolidated financial statements.



                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         39                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

The GAO Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

The GAO Standards also state:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

OMB Circular No. A-123 states:

      Control activities are the policies and procedures that help ensure that
      management directives are carried out and that management's assertions
      in its financial reporting are valid.

SFFAS No. 15, Management’s Discussion and Analysis, states:

      …MD&A should provide a clear and concise description of the reporting
      entity and its mission and activities, program and financial performance,
      systems, controls, legal compliance, financial position and financial
      condition. MD&A should provide a balanced presentation that includes
      both positive and negative information about these topics.

SFFAS No. 15 also states:

      MD&A should include forward-looking information regarding the possible
      future effects of the most important existing, currently-known demands,
      risks, uncertainties, events, conditions and trends.

OMB Circular No. A-136, Financial Reporting Requirements, states:

      The MD&A should also include forward-looking information about the
      possible effects of the most important existing performance and financial
      demands, events, conditions, and trends. Management should discuss
      important problems that need to be addressed, and actions that have
      been planned or taken to address those problems. Actions needed,
      planned, and taken may be discussed within the sections listed above or
      in a separate section of the MD&A.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        40                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Treasury Financial Manual, Part 2 – Chapter 4700, Section 4705, states:

      List Closing Package line item amounts identified as Federal (items to be
      eliminated in the Government wide consolidation) by trading partner and
      amount.

Recommendations

The following prior-year recommendation are still open:

   •	 Document the process for promptly researching and resolving significant financial
      reporting issues that are identified.

In addition, we are making the following new recommendations that the Acting CFO:

    17. Develop and implement formal policies and procedures to assess the
        aggregate impact of correcting prior-year errors in the current year and to
        document the materiality analysis of such errors.
    18. Expand future years’ MD&A to include forward-looking information identified in
        SFFAS No. 15 and OMB Circular A-136.
    19. Analyze and revise internal timelines for agencies to provide performance
        measure information to OCFO for the MD&A in order to allow sufficient time for
        OCFO to review and coordinate any appropriate changes to the submitted
        information.
    20. Develop and implement procedures to identify, analyze, and document

        significant fluctuations in closing package data from year to year.


Management’s Response

Management agrees that the closing package data was not analyzed sufficiently. We
will revisit and update if necessary, our procedure for cross-referencing and supporting
all totals and trading partners to ensure proper reporting.

Management does not agree that a formally documented process for promptly
researching and resolving significant financial reporting issues was necessary or
reasonable since the process for researching and resolving significant financial
reporting issues can vary greatly depending on the issue. We do not believe that lack of
formally documented policies and procedures will lead to errors in the consolidated
financial statements since DOL promptly researches and rectifies significant financial
reporting issues when discovered and will continue doing so going forward.

Management does not agree that we did not document an assessment of the
quantitative and qualitative impact of these corrections on the current year financial
statements prior to recording them. The support for the entries provided the Cumulative

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        41                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

Results of Operations proof that identified the issue. We also provided the analysis
performed before recording the entries to the current year which is stated below:

During FY 2013, CRO and Unexpended Appropriation balances in Treasury Account
Fund 1521 were analyzed and we discovered that in prior years, 2012 and 2010, some
entries were recorded incorrectly. In order to correct these errors, entries needed to be
recorded to 3107/5700. Before doing so we evaluated the overall impact to the Financial
Statements in which we determined there not to be any effect (in total). The net position
of the statements would not change. At the line item level we deemed the impact to be
immaterial because it would not impact a user of the statements. We also analyzed the
impact related to 2012 activity versus 2010 activity. Of the $894M, $544M relates to
FY 2010, if any prior period adjustments were to be considered, it should have been
considered during FY 2011 where the activity could have been reflected in the proper
period. But given the amount, $544M would not have been above the materiality
threshold either so a current year adjustment would have been proper.

These errors were properly researched and analyzed to assess the qualitative and
quantitative effect on the overall financial statement therefore their inclusion in the
current year data was not misleading for the users of the financial statements.

Management does not agree that certain requirements of MD&A namely, forward-
looking information, were not fully addressed. Management believes that the MD&A
sufficiently addressed forward-looking information and met internal timelines.

Auditors’ Response

Although management stated they did not concur with the recommendations, sufficient
documentation was not provided to contradict the deficiencies identified. Follow-up
procedures will be conducted in FY 2014 to determine whether corrective actions have
been developed and implemented.

15. Improvements Needed in Property, Plant, & Equipment (PP&E) Controls

Certain control weaknesses exist in OCFO’s processing of PP&E transactions.
Specifically, during testing of a sample of 13 PP&E additions for the period October 1,
2012, through June 30, 2013, the following three exceptions were identified:

    •	 Two were not timely recorded in the PP&E subsidiary ledger or NCFMS.
       Although DOL identified these exceptions during its annual inventory
       procedures, these 2 additions were recorded in the PP&E subsidiary ledger and
       NCFMS between 5 and 8 years after being placed into service. One occurred
       because the responsible Contracting Officer’s Representative (COR) neglected
       to submit the certificate of substantial completion to initiate the capitalization
       process in a timely manner. The second occurred because DOL’s annual
       inventory count procedures did not include steps to inventory land.

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         42                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

   •	 One did not have invoices or other documentation to support the full amount
      because of insufficient management review prior to recording the asset in
      NCFMS.

Additionally, DOL did not fully configure NCFMS to record PP&E additions and deletions
and to calculate current-year and accumulated depreciation because of competing
priorities and limited resources.

The OCFO made progress in addressing prior-year recommendations. Specifically,
OCFO personnel were trained to perform PP&E functions previously performed by
contractors. In addition, DOL made progress in configuring the NCFMS fixed asset
module and continued with plans to fully configure the module pending available
resources and other priorities. However, controls over the PP&E process, including
management review procedures, could be further improved. Based on the three errors
noted in this year’s testing, the PP&E balance was understated by $7 million for several
years.

The GAO Standards state “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.”

The GAO Standards also state:

Internal control and all transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or
operating manuals and may be in paper or electronic form. All documentation and
records should be properly managed and maintained.

Recommendations

The following prior-year recommendation is still open:

   •	 The Acting CFO should complete efforts to configure NCFMS to timely record
      PP&E additions and deletions and accurately calculate current-year and
      accumulated depreciation.

In addition, we are making the following new recommendations that the Acting CFO:

    21. Develop and implement policies and procedures requiring the COR to notify
        accountants of the substantial completion of a project within a specified
        timeframe (e.g., within five business days of certifying substantial completion).
    22. Develop and implement procedures to inventory land on a periodic basis.
    23. Develop and implement review procedures to ensure that a complete set of
        supporting documentation for each PP&E addition is readily available.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        43                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I


Management’s Response

Management agrees with the exceptions noted. ETA will develop and implement
procedures to ensure that the accounting office receives the substantial completion
documentation of a project in a timely manner. This would include monthly
communication with the program office regarding ongoing projects. In terms of the land
inventory, the annual validation process and applicable procedures will be updated to
include land verification. ETA will perform land verifications utilizing the corresponding
electronic database. As it relates to PPE additions, starting with FY 2014, NCFMS fixed
asset module will be the official record for regular ETA and OJC assets. ETA will
perform monthly review of the assets listing maintained by the sub ledger system and
develop and implement these procedures by the quarter ending.

OCFO Response: In FY 2014, the NCFMS fixed asset module will be DOL's official
system used to timely record PP&E additions and deletions and to accurately calculate
current year depreciation and accumulated depreciation.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

16. Improvements Needed over the Review and Reconciliation of Payroll-related
    Information Provided by the U.S. Department of Agriculture National Finance
    Center (NFC)

Human Resource Officers (HRO) did not prepare 10 of 27 Payroll/Time and Attendance
Reconciliation Reports (Reconciliation Reports) timely (i.e., bi-weekly) for pay cycles
during the period October 1, 2012, through March 31, 2013. One was prepared between
30 and 60 days after the end of the pay period, and 9 were prepared greater than 60
days after the end of the pay period. All 10 Reconciliation Reports were prepared only
after the auditors requested them.

Furthermore, DOL could not provide policies and procedures on how it reconciled
deductions data (e.g., employer withholdings) provided by NFC on a bi-weekly basis to
DOL records to arrive at employee net pay and total benefits expense.

HROs did not follow established monitoring policies required of them by OASAM’s
Internal Control Directive (ICD) Human Resource Center (HRC)-3. In addition, DOL did
not develop and implement policies and procedures to reconcile deductions data
provided by NFC on a bi-weekly basis to DOL’s records because management believed
other internal controls were sufficiently designed and operating effectively to mitigate
related risks.

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         44                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Untimely and incomplete reconciliation controls around the NFC compensation reports
and the lack of related monitoring controls increase the risk that payroll-related items
may be misstated and not timely corrected because of errors in payroll processing by
NFC.

The GAO Standards state:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

DOL ICD, HRC-3, states, “Payroll time and attendance reconciliations are to be
prepared bi-weekly.”

DOL ICD, HRC-3, also states:

      Human Resource officers are responsible for ensuring that the annotated
      Payroll Time and Attendance report is fully and contemporaneously
      completed relative to each bi-weekly Payroll/Time and Attendance Report,
      and that such form is certified by both the human resources staff member
      who conducted the review and his/her supervisor.

Federal agencies that use external service providers such as NFC should have controls
in place to ensure the accuracy of processing outputs. As stated by the United States
Department of Agriculture OIG in its FY 2012 Report No. 11401-0004-11, Statement on
Standards for Attestation Engagements No. 16 Report on Controls at the National
Finance Center:

      NFC provides services with the understanding that the user entity
      implements certain controls…While NFC’s processing control activities
      and procedures are designed to ensure system, application and data
      security and integrity, it is the user’s entity’s responsibility to establish,
      implement, and maintain their internal controls to ensure that input
      submitted to NFC is complete, valid, and authorized. Additionally, NFC
      sends certain data and reports to its user entities as a control for their
      review. NFC’s user entities also have the responsibility to notify NFC,
      through their Client Management Representative, of their discovery of any
      unauthorized or improper transactions. Accordingly, all users of NFC
      services should establish their own internal controls or procedures to
      complement those of NFC.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        45                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Recommendations

The following prior-year recommendation is still open:

The Acting CFO should coordinate with OASAM to develop policies and procedures to
reconcile deduction data provided by NFC on a bi-weekly basis to DOL’s records to
arrive at an employee’s net pay and total benefits expense.

In addition, we are making the following new recommendation that the Acting CFO:

    24. Coordinate with OASAM to develop policies and procedures to monitor HROs to
        ensure compliance with ICD HRC-3 procedures.

Management’s Response

Management will take the second recommendation under consideration. However, as
indicated in the cause section, management believes that other internal controls are
sufficiently designed and operating effectively to mitigate related risks, ensuring that
deduction data provided by NFC on a bi-weekly basis is accurate.

Auditors’ Response

Although management stated they do not concur with our recommendations, they
indicated that actions will be taken to address them. Follow-up procedures will be
conducted in FY 2014 to determine whether corrective actions have been developed
and implemented.

17. Lack of Policies and Procedures and Untimely Initiation of Background
    Investigations

A sample of 9 newly hired DOL employees and 9 contractors were tested to determine if
they had a background investigation either completed or initiated within 14 calendar
days of the date that the individuals first entered on duty at DOL. The following
exceptions were identified:

Employees
The background investigation for 1 of 9 DOL employees tested was initiated 28 days
after the employee reported for duty. This occurred primarily because the Previous
Investigation Check (PIC) form, which is used to determine whether a new background
investigation is necessary for an individual who held previous federal position(s), was
not completed timely by the OASAM Security Center. Current policies and procedures
did not reflect the appropriate roles and responsibilities of individuals in charge of
background investigations, including the PIC process. Furthermore, the OASAM
Security Center had not implemented an effective process for monitoring the bi-weekly

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        46                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

report which lists all recent federal hires and the status of each new employee’s
background investigation.

Contractors
For 2 of 8 contractors, the background investigation was initiated 154 to 219 days after
their date of placement in position. Additionally, the OCFO did not provide the
necessary information to test 1 contractor. These conditions occurred because DOL did
not have a consistent, department-wide process in place to record the date a contractor
was placed in position and the date the background investigation was initiated. In
addition, the OASAM Security Center did not dedicate resources to develop and
implement a process to effectively monitor compliance with federal and DOL policies for
contractors.

Without sufficient policies and procedures to enforce and monitor the timeliness of the
initiation of background investigations for DOL employees and contractors, DOL may
not be in compliance with federal requirements and may have placed DOL’s information
and financial systems at risk.

5 CFR, Section 731.106(c) – Designation of Public Trust Positions and Investigative
Requirements, states:

      (1) Persons receiving an appointment made subject to investigation under
          this part must undergo a background investigation. Office of Personnel
          Management (OPM) is authorized to establish minimum investigative
          requirements correlating to risk levels. Investigations should be
          initiated before appointment but no later than 14 calendar days after
          placement in the positions.

DOL Personnel Suitability and Security Handbook, Chapter 2, Section 1, part D, states,
“DOL requires an investigation to be initiated before an individual first enters on duty
with the Department, or at the most, within 14 calendar days of placement in the
position […].”

Additionally, DOL Personnel Suitability and Security Handbook, Chapter 4, Section 2,
states:

      The personnel suitability and security program requirements that apply to
      DOL employees also apply to contractor employees, as well as to other
      persons who have such access by virtue of an agreement between a DOL
      Agency and another party.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        47                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

Furthermore, DOL Personnel Suitability and Security Handbook, Chapter 4, Section 3,
Part C, states:

   The DOL Agency Heads, or their designees, are responsible for the operation 

   of the Personnel Suitability and Security Program as it relates to contractor

   employees engaged in work for their respective organizations, including the 

   following:


   •	 Ensure that a contractor employee is not allowed to work, unless he or she
      has completed all required documentation to initiate the investigation.
   •	 Ensure that the appropriate level of investigation for each contractor

      applicant or employee is initiated before or shortly after he or she begins

      work.


Recommendations

We have closed the recommendation made in last year’s Management Advisory
Comments as unimplemented. Alternatively, we are now recommending that the Acting
CFO coordinate with the Director of the OASAM Security Center to ensure:

    25. Appropriate resources are dedicated to update existing policies and procedures
        to (a) reflect current roles and responsibilities; (b) specify the appropriate time
        period for completing and reviewing the PIC form; and (c) implement monitoring
        procedures over the bi-weekly report of all recent Federal hires and the status
        of each new employee’s background investigation.
    26. Department-wide policies and procedures are developed and implemented to
        monitor the initiation of background investigations for DOL contractors.
        Specifically, these policies and procedures should address (a) the development
        and maintenance of a tracking mechanism for all contractors placed into
        position that captures their start dates and dates of background investigation
        initiation, and (b) monitoring activities to be performed by the OASAM Security
        Center to ensure compliance with 5 CFR 731.106 and DOL policies for
        contractors.

Management’s Response

Management concurs with the recommendation.

The Team Lead and Security Specialist in the OASAM Security Center Personnel
Security Division (SC-PSD) are in the process of updating and revising the Personnel
Security and Suitability Handbook to reflect appropriate roles and responsibilities for the
entire investigation request process. The projected date to place the revised Personnel
Security and Suitability Handbook into Departmental clearance is the 3rd quarter of FY-


                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         48                      Report Number: 22-14-006-13-001
                                              U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

2014. Once cleared, SC-PSD will conduct training for HROs and CORs to ensure that
there is a full understanding of their roles/responsibilities.

SC-PSD staff is currently updating the PSD Incoming Log Database to include the
contract start dates to assist with monitoring the investigation status of contract
employees. The Security Center is conducting research into case management systems
used by the majority of federal agencies that allow thorough tracking and greater
accountability for investigation requests. Once a viable system is identified a
recommendation will be made to Departmental leadership.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

18. Deficiencies Noted in the Preparation of the Federal Managers’ Financial
    Integrity Act of 1982 (FMFIA) Draft Assurance Statement

DOL made certain improvements in the FMFIA process from the prior FY, such as
providing the draft of the FMFIA assurance statement and Summary of Aggregated
Deficiencies in September, as recommended in FY 2012. However, certain deficiencies
in the FMFIA process still existed, specifically related to management’s final internal
control assessment. For example, although the FMFIA planning document was
enhanced to include the consideration of relevant external audit results, the final internal
control assessment did not sufficiently document management’s assessment of control
deficiencies identified through other audits, including the financial statement audit.
Furthermore, the internal control assessment, dated November 11, 2013, was not
updated to provide a rationale for differing conclusions between the audit results, which
included certain significant deficiencies in internal controls, and management’s, which
reported no significant deficiencies and an unqualified FMFIA assurance statement.

In addition, the internal control assessment did not include sufficient testing of general
controls for DOL IT financial systems not covered by Statement on Standards for
Attestation Engagements (SSAE) No. 16 reports to ensure all significant deficiencies
and material weakness were identified.

DOL’s internal control assessment was as of June 30, while the financial statement
audit assesses internal controls for the entire fiscal year, which could lead to differences
in severity determinations. However, management has a history of disagreement with
independent evaluations of its internal controls. Additionally, in FY 2013 management’s
IT testing was limited to a consideration of deficiencies identified in SSAE No. 16
reports relevant to DOL that were performed by third parties, selective validation testing
of responses to the Office of Financial Systems’ self-assessment survey, and reliance
on Financial Management Quarterly Certifications completed by each DOL agency.

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2013
                                         49                      Report Number: 22-14-006-13-001
                                               U.S. Department of Labor—Office of Inspector General
                                                                                            Exhibit I


As a result of the aforementioned issues, DOL’s FMFIA assessment process may not
be operating at a sufficiently detailed level to identify, evaluate, correct, and report all
significant deficiencies and material weaknesses, which could result in non-compliance
with FMFIA.

FMFIA, Paragraph 3, states:

       …By December 31 of each succeeding year, the head of each executive
       agency shall, on the basis of an evaluation conducted in accordance with
       guidelines prescribed under paragraph (2) of this subsection, prepare a
       statement – that the agency’s systems of internal accounting and
       administrative control fully comply with the requirements of paragraph
       (1)…

OMB Circular No. A-123, states:

       Sources of information include:…Audits of financial statements conducted
       pursuant to the Chief Financial Officers Act, as amended, including:
       information revealed in preparing the financial statements; the auditor’s
       reports on the financial statements, internal controls, and compliance with
       laws and regulations; and any other material prepared relating to the
       statements….Reviews of systems and applications conducted pursuant to
       the Computer Security Act of 1987.…

       Agency managers and employees should identify deficiencies in
       management controls from the sources of information described above. A
       deficiency should be reported if it is or should be of interest to the next
       level of management. Agency employees and managers generally report
       deficiencies to the next supervisory level, which allows the chain of
       command structure to determine the relative importance of each
       deficiency.

DLMS 6, Chapter 112, Section B14, Financial Management Responsibilities, states:

       …The CFO is responsible for preparing accurate and timely reports,
       including financial statements with performance measures, and reports
       prescribed under the Federal Managers’ Financial Integrity Act, the Chief
       Financial Officers Act, and Amendments to the Inspector General Act.

Recommendations

The following prior-year recommendations are still open:
    •	 Enhance documentation of DOL’s final internal control assessment and related
       rationale.

                                                                   Management Advisory Comments
                                                            For the Year Ended September 30, 2013
                                          50                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

    •	 Enhance documentation of DOL’s consideration of relevant external audit
       results.
    •	 Enhance the FMFIA process to include additional testing of controls for DOL IT
       systems to ensure all significant deficiencies and material weaknesses are
       identified.

Management’s Response

Management believes the FMFIA Assurance Statement preparation process was
thorough and in accordance with FMFIA and external reporting requirements.
Management will consider the auditors recommendations in performing the assessment
in FY 2014.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

19. Lack of Advisory Council on Unemployment Compensation

DOL was not in compliance with Section 908 of the Social Security Act (SSA), which
requires the Advisory Council on Unemployment Compensation (ACUC) to meet every
four years. The last meeting of the ACUC was in 1997. ETA has been proposing an
amendment to SSA since 2005 because it did not believe the ACUC was the most
effective way to evaluate the unemployment compensation program. ETA’s most recent
proposal was in the Unemployment Compensation Program Integrity Act of 2011, which
would permit the Secretary of the Department of Labor to establish an advisory council
at his/her discretion, instead of every four years. Congress has not yet approved this
amendment.

Although ETA developed a proposal to amend the SSA in FY 2012, it was not approved
by DOL for submission to Congress because of competing priorities. ETA developed an
amendment to be submitted in FY 2013 that would change the requirement.

As such, DOL was not in compliance with SSA, Section 908, which states:

      Not later than February 1, 1992, and every 4th year thereafter, the
      Secretary of Labor shall establish an advisory council to be known as the
      Advisory Council on Unemployment Compensation (referred to in this
      section as the “Council”). It shall be the function of each Council to
      evaluate the unemployment compensation program, including the
      purpose, goals, countercyclical effectiveness, coverage, benefit adequacy,
      trust fund solvency, funding of State administrative costs, administrative


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        51                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

      efficiency, and any other aspects of the program and to make
      recommendations for improvement.

Recommendation

The following prior-year recommendation is still open:

We recommend the Acting CFO ensure that the Assistant Secretary for Employment
and Training complies with Section 908 of the SSA.

Management’s Response

Management agrees with the recommendation to continue to pursue having the SSA
amended by submitting to Congress a proposal to amend the SSA, as has been done in
prior years. ETA is preparing for clearance an integrity related legislative proposal that
will include the amendment.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.

20. Unsupported and/or Incorrect Expenses

Certain non-benefit, non-payroll expense transactions recorded in the NCFMS for the
year ended September 30, 2013 lacked supporting documentation or were incorrectly
recorded. Specifically, the following errors were identified during testing of 201
transactions:

   •	 3 transactions were recorded in the improper period;
   •	 4 transactions did not have Object Class Codes recorded;
   •	 2 transactions were incorrectly recorded using Document ID Type 19

      (miscellaneous obligations) instead of Document ID Type 24 (contracts);

   •	 1 transaction did not have documentation indicating the goods were received in
      the current fiscal year;
   •	 2 transactions related to FY 2012 expenses recorded in FY 2013, and DOL could
      not provide appropriate documentation indicating the amount was accrued in
      FY 2012;
   •	 2 transactions did not have documentation supporting the rationale for recording
      baseline adjustments;



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        52                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

   •	 1 transaction was the reversal of a capital purchase that should not have been
      expensed but should have been capitalized in a previous period. In addition, this
      transaction did not have a document type recorded in the Document ID field.
   •	 6 transactions had an ETA 9130 cost report that did not equal the sample 

      amount shown in NCFMS.

   •	 1 transaction did not have sufficient supporting documentation; and
   •	 1 transaction did not have a document type recorded in the Document ID field.

The FY 2012 expenses recorded in FY 2013 occurred because management did not
have a method in place to determine if specific expense items were properly considered
in the prior-year accrual process, as personnel were unable to demonstrate how
invoices received in the last few days of the prior fiscal year related to the accruals
made. Additionally, these errors occurred in part because management recorded prior-
period adjustments as current-year expenses instead of adjusting beginning balances
because they determined the expenses were immaterial. However, management did not
document this assessment. Furthermore, the recording of incorrect or unsupported
expense transactions was caused by insufficient review of related documentation to
ensure the amounts were correct and the transactions were supported before posting
them to the general ledger.

The errors identified above resulted in a $3 million known net misstatement of total
non-benefit, non-payroll expenses as of September 30, 2013. Based on the sample
results, the projected most likely overstatement was $96.5 million, with 86 percent
confidence that the errors ranged from an understatement of $53.3 million to an
overstatement of $246.2 million.

The GAO Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

In addition, the GAO Standards state:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions. This
      applies to the entire process or life cycle of a transaction or event from the
      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        53                      Report Number: 22-14-006-13-001
                                             U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Recommendations

The following prior-year recommendations are still open:

   •	 Develop and implement monitoring controls to ensure that individuals are
      performing sufficient reviews of expenses and related documentation prior to
      posting to ensure they are adequately supported and that the correct amounts
      and attributes are recorded.
   •	 Develop and implement a process to identify and accumulate prior-period errors
      that management determined to be immaterial and corrected through the
      current-year activity. Management’s assessment should be documented.

In addition, we are making the following new recommendations that the Acting CFO:

    27. Review the current procedures for grant accrual reversals within NCFMS and
        develop procedures that require accrual reversals prior to the recording of actual
        cost reports.
    28. Develop and implement procedures to determine if invoices received prior to
        year end that could not be processed until the next fiscal year were properly
        included in the applicable expense accrual (e.g., though a look-back analysis in
        the case of accrual estimates).

Management’s Response

ETA Accounting will develop a corrective action plan to address the conditions indicated
applicable to ETA Accounting. The auditor’s recommendations will be taken into
consideration during the development of the corrective action plan.

OCFO Management believes that it has adequate procedures and oversight in regards
to grant accrual reversals within NCFMS. Management will continue to review these
procedures and emphasize them as needed.

OCFO management believes that it has sufficient expense oversight and monitoring
procedures in place and proper documentation requirements. Management periodically
reviews existing procedures for reviews of expenses and related documentation to
ensure they are adequately supported. Management will emphasize these procedures
as needed.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. Follow-up procedures will be conducted in FY 2014 to determine whether
corrective actions have been developed and implemented.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2013
                                        54                      Report Number: 22-14-006-13-001
                                                                            U.S. Department of Labor—Office of Inspector General
                                                                                                                        Exhibit II


Prior-Year Comments and Related Recommendations
Closed in FY 2013
The following 7 comments reported in the Management Advisory Comments Identified in an Audit of the Consolidated
Financial Statements for the Year Ended September 30, 2012, dated June 4, 2013, were closed in FY 2013.


Prior-Year   Fiscal Year     Title of Comment
Comment       Comment      Reported in FY 2012
 Number      Originated              MAC                      Recommendation(s) Reported in the FY 2012 MAC
 2012-05        2012       Unsupported Cost       We recommend the Chief Financial Officer enhance policies and
                           Allocation             procedures to require:
                           Percentages             1. The performance of an annual analysis of cost allocations amount
                                                      programs and agencies.
                                                   2. The maintenance of documentation supporting this analysis and related
                                                      revisions made, if necessary, to the cost allocation methodology.
 2012-07        2012       Insufficient Review of We recommend the Chief Financial Officer update the budgetary to
                           the Budgetary to       proprietary reconciliation procedures to require that explanations for all
                           Proprietary            material Tie-Point material variances be documented.
                           Reconciliation
 2012-10        2010       Weaknesses             We recommend the Assistant Secretary for Administration and
                           Identified in the      Management update the Standard Operating Procedures Guidelines for the
                           Review of Payroll      Human Resources (HR) Payroll Suspense Process to include: (a) minimum
                           Suspense Reports       documentation requirements to support the review of suspense reports and
                                                  the clearing of items listed on the suspense reports, and (b) requirements
                                                  related to the time period and method of retention of such documentation.

                                                  We also recommend the Director of Human Resources, Human Resource
                                                  Center, OASAM, monitor compliance with the Standard Operating
                                                  Procedures Guidelines for the HR Payroll Suspense Process.


                                                                                                Management Advisory Comments
                                                                                         For the Year Ended September 30, 2013
                                                       55                                      Report Number: 22-14-006-13-001
                                                                             U.S. Department of Labor—Office of Inspector General
                                                                                                                          Exhbit II

Prior-Year   Fiscal Year     Title of Comment
Comment       Comment      Reported in FY 2012
 Number      Originated             MAC                       Recommendation(s) Reported in the FY 2012 MAC
 2012-14        2011       Untimely review of      We recommend the Chief Financial Officer develop and implement
                           Intra-governmental      procedures for supervisory review of the intra-governmental quarterly
                           Reconciliation of       confirmation and reconciliation prior to submission to Treasury. These
                           Office of Personnel     procedures should indicate the date by which the review is to be completed
                           Management (OPM)        and require that the reviewer physically or electronically document his or
                           Employee Benefits       her review and approval and the date of review.
 2012-17        2012       Lack of Proper          We recommend that the Acting Director of the Office of Workers’
                           Review of Claimant’s    Compensation Programs continues to implement the policies and
                           Information Recorded    procedures that require the CEs to review the information entered by the
                           in the Energy           CCCs and to update information in ECS as applicable.
                           Compensation
                           System (ECS)
 2012-19        2010       Lack of Policies and    We recommend the Assistant Secretary for Veterans’ Employment and
                           Procedures Related      Training formally document policies and procedures regarding how the
                           to New Obligations/     PAR should be used to ensure that changes to obligating documents are
                           Modifications           supported by documentation that is retained and readily available upon
                                                   request.
 2012-21        2011       Insufficient Policies   We recommend the Chief Financial Officer revise the policies and
                           and Procedures          procedures related to the annual preparation and review of the FAM 2010.
                           Related to the          The policies and procedures should include the following, at a minimum:
                           Preparation of the       1. The date the checklist should be completed and reviewed.
                           Financial Audit          2. Requirements for preparers to support their responses to questions in
                           Manual (FAM) 2010           the checklist with detailed explanations, in accordance with GAO’s
                           Checklist                   instructions.
                                                    3. Requirements for a supervisor to review the completed FAM 2010
                                                       checklist for completeness, accuracy, and validity.




                                                                                                 Management Advisory Comments
                                                                                          For the Year Ended September 30, 2013
                                                                  56                            Report Number: 22-14-006-13-001
                                     U.S. Department of Labor—Office of Inspector General
                                                                                 Exhibit II


Appendix A

                      Acronyms and Abbreviations
ACUC            Advisory Council on Unemployment Compensation
ALC             Agency Location Code
BLS             Bureau of Labor Statistics
BPD             Bureau of Public Debt
COR             Contracting Officer’s Representative
DBC             Departmental Budget Center
DCAO            Division of Central Accounting Office
DLMS            Department of Labor Manual Series
DOL             United States Department of Labor
ETA             Employment and Training Administration
FAC             Federal Audit Clearinghouse
FAM             Financial Audit Manual
FAR             Federal Acquisition Regulation
FBWT            Fund Balance with Treasury
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FMS 6652        Statement of Differences
FY              Fiscal Year
GAO             Government Accountability Office
GAO Standards   Government Accountability Office’s Standards for Internal Control
                in the Federal Government
GWA	            Government-wide Accounting
HHS-PMS	        Health and Human Services – Payment Management System
HR	             Human Resources
HRC 	           Human Resource Center
HRO	            Human Resource Officers
ICD	            Internal Control Directive
IT	             Information Technology
JV	             Journal Voucher
MD&A	           Management’s Discussion and Analysis
NCFMS	          New Core Financial Management System
NFC	            United States Department of Agriculture National Finance Center
OABP	           Office of Agency Budget Programs
OASAM	          Office of the Assistant Secretary for Administration and
                Management
OBPS	           Office of Budget Policy and Systems
OCFO	           Office of the Chief Financial Officer
OIG	            Office of Inspector General
OMB	            Office of Management and Budget
OPM	            Office of Personnel Management
OSHA	           Occupational Safety and Health Administration
PAR	            Procurement Action Request

                                                         Management Advisory Comments
                                                  For the Year Ended September 30, 2013
                            57                          Report Number: 22-14-006-13-001
                               U.S. Department of Labor—Office of Inspector General
                                                                            Exhbit II

PIC        Previous Investigation Check
PP&E       Property, Plant, and Equipment
SC-PSD     Security Center Personnel Security Division
SFFAS      Statement of Federal Financial Accounting Standards
SOSI       Statement of Social Insurance
SSA        Social Security Act
SSAE       Statement on Standards for Attestation Engagements
SSP        Shared Service Provider
TAFS       Treasury Account Fund Symbol
TFM        Treasury Financial Manual
Treasury   United States Department of the Treasury
U.S.       United States
UDO        Undelivered Order
U.S.C.     United States Code
USSGL      U.S. Standard General Ledger
UTF        Unemployment Trust Fund
VETS       Veterans’ Employment and Training Service




                                                   Management Advisory Comments
                                            For the Year Ended September 30, 2013
                      58                          Report Number: 22-14-006-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:        1-800-347-3756
                    202-693-6999

Fax:                202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
